Office of Inspector General
U.S. Department of Labor
Office of Audit




                                Audit of
                Pinellas Workforce Development Board’s
                 Competitive Welfare-to-Work Grant
                  July 1, 1998 Through June 30, 2001




                                     Report Number: 04-02-002-03-386
                                     Date Issued:   March 26, 2002
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                                            TABLE OF CONTENTS

ACRONYMS ............................................................................................................................iv

EXECUTIVE SUMMARY .......................................................................................................1

BACKGROUND .......................................................................................................................3

OBJECTIVE, SCOPE AND METHODOLOGY ......................................................................7

RESULTS OF AUDIT...............................................................................................................8

Contract Terms Were Violated and Contract Charges
       Were Not Properly Documented....................................................................................8

Poor Procurement Practices Inflated Participant Service Costs ...............................................12

Grant Performance Reporting and Contract Monitoring
      Were Inadequate ............................................................................................................16

PWDB Did Not Use The Program Delivery Methodology
    Proposed in Its Grant Application..................................................................................17

RECOMMENDATIONS..........................................................................................................18

PINELLAS COUNTY’S COMMENTS
TO THE DRAFT REPORT ......................................................................................................18

OIG’S CONCLUSIONS...........................................................................................................18

ATTACHMENTS:

          A – Abilities of Florida, Inc.
          B – Lockheed Martin IMS (contract number 98-WtW-13)
          C – Gulf Coast Jewish Family Services, Inc.
          D – Family Resources, Inc.
          E – Bay Area Commuter Services, Inc.
          F – Lockheed Martin IMS (contract number 98-WtW-14)
          G – Lockheed Martin IMS (contract number 98-WtW-11)




                                                                                                                                          ii

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                         TABLE OF CONTENTS (Continued)


EXHIBIT 1: Summary of Questioned Costs

EXHIBIT 2: Documentation Related to Computation of Fixed-Unit-Price
            Contract Performance-Based Benchmark Payments

EXHIBIT 3: The Complete Text of Pinellas County’s Response
            to the Draft Audit Report




                                                                      iii

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant




                                             ACRONYMS


Abilities        -        Abilities of Florida, Inc.
CEO              -        Chief Elected Official
CFR              -        Code of Federal Regulations
COPI             -        Career Options of Pinellas, Inc.
DOL              -        U.S. Department of Labor
ETA              -        Employment and Training Administration
HHS              -        U.S. Department of Health and Human Services
JTPA             -        Job Training Partnership Act
OIG              -        Office of Inspector General
OMB              -        Office of Management and Budget
PIC              -        Private Industry Council
PRWORA           -        Personal Responsibility and Work Opportunity Reconciliation Act
PWDB             -        Pinellas Workforce Development Board, Inc.
QFSR             -        Quarterly Financial Status Report
SDA              -        Service Delivery Area
TANF             -        Temporary Assistance for Needy Families
UI               -        Unemployment Insurance
WAGES            -        Work and Gain Economic Self-Sufficiency
WIA              -        Workforce Investment Act
WtW              -        Welfare-to-Work




                                                                                            iv

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant
_______________________________________________________________________
_______________________________________________________________________


                                  EXECUTIVE SUMMARY

At the request of the U.S. Department of Labor (DOL), Employment and Training
Administration (ETA), we have completed an audit of activities funded by a Competitive
Welfare-to-Work (WtW) grant in Pinellas County, Florida. Our audit included grant activities
that occurred during the period July 1, 1998 through June 30, 2001. ETA requested the audit
because of concerns that WtW program participants, who were claimed to have been placed in
unsubsidized jobs were, in fact, placed in another Federally- funded employment and training
program.

Pinellas Workforce Development Board, Inc. (PWDB), received a $1.5 million WtW grant on
June 30, 1998, to place 300 hard-to-serve individuals in unsubsidized employment over a
24-month period. PWDB received verbal approval from ETA to extend the grant for 12 months,
through June 30, 2001. In January 2001, the grant’s administration was transferred from PWDB
to WorkNet Pinellas.


                    ETA’s concerns were justified. A PWDB contractor, paid to place WtW
 Our Findings       participants in unsubsidized employment, instead placed the participants in
                    another subsidized training program funded by the U.S. Department of
                    Health and Human Services (HHS). Both the WtW and HHS contractors
received payments for job placement and employment retention of the same individuals.
Consequently, the contractor violated terms of its contract and duplicated services funded by
another Federal program.

We also reviewed seven additional PWDB contracts and found a variety of procurement,
financial, compliance and program delivery concerns. Because the contracts were not
competitively procured, we questioned all expenditures totaling $858,674, for the eight contracts
we examined. We also questioned $542,230 of the eight contracts’ expenditures for reasons
other than lack of competitive procurement. A summary of questioned costs related to the
contracts is provided in Exhibit 1 of this report. Further information on each of the contracts we
examined and our concerns are provided in Attachments A through G of this report.

 We are also concerned that the grant did not achieve its intended purpose. Specifically, we
found:
           • contract terms were violated and contract charges were not properly documented;

             •   poor procurement practices inflated participant service costs;

             •   grant performance reporting and contractor monitoring was inadequate; and

             •   program delivery methods promised in the grant application were not used.



U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                           Although significant weaknesses were identified in PWDB’s grant
 Recommendations           management procedures and controls, we are not recommending
corrective action, because the grant has expired and PWDB no longer acts as administrative
entity for Federal grant funds. However, we are recommending the Assistant Secretary for
Employment and Training recover $858,674 in misspent WtW grant funds.


 Pinellas County’s            Pinellas County indicated that it was unable to respond to our report
 Response                     because, during most of our audit period, another entity was the WtW
                              grant recipient, and Pinellas County does not have all the necessary
                              files. Pinellas County stated that they did not agree to accept any
                              liability for the grant.


Our Evaluation            We disagree with Pinellas County’s contention they did not assume
                          liability for the grant and did not have the files necessary to respond to
                          our audit. A transition plan was prepared that indicates Pinellas
County assumed responsibility for the grant on January 19, 2001. The plan also indicates
Pinellas County took custody of program documentation prepared before the transition.
Consequently, we continue to recommend that the Assistant Secretary recover $858,674 in
misspent WtW funds.




                                                                                                      2

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                                          BACKGROUND

                              During a recent audit 1 of Florida’s cash management practices, we
 Concerns With
                              became aware of questionable practices related to a $1.5 million
 PWDB’s Competitive
                              Competitive WtW grant awarded to the PWDB. We identified
 WtW Grant Programs           participants served under the WtW grant who were claimed as
                              placed in unsubsidized employment when, in fact, they entered
employment training activities funded by the Florida Work and Gain Economic Self-Sufficiency
(WAGES) program.

HHS provided funding for the WAGES program. Contractors for both the WAGES Board and
PWDB received compensation, in the form of fixed-price payments, for serving the same
participants.

Upon notification of our concerns, the ETA conducted a program and fiscal monitoring review
of the WtW grant. ETA’s monitoring review substantiated that the questionable practices
identified by the Office of Inspector General (OIG) had occurred. At ETA’s request, we
conducted an audit to determine if WtW grant funds awarded to PWDB were spent in
accordance with WtW legislation and grant regulations.


    Independent Auditors       A public accounting firm audited the financial statements of
                               PWDB for the period July 1, 2000 to January 31, 2001. The
    Identified Similar
                               audit was performed in accordance with the Office of
    Problems
                               Management and Budget (OMB) Circular A-133. The auditors’
                               tests of compliance with laws and regulations disclosed material
instances of noncompliance that were reported. However, the accounting firm did not qua ntify
misspent funds.

Many of the conditions reported by the accounting firm are similar to those discussed in this
report. For example, the auditors found that grant subrecipients (contractors) billed more than
one program for the same services and recommended recovery of unallowable cost. The auditors
also noted that PWDB had failed to monitor subrecipients and submitted inaccurate Federal
reports.

                                   At the time the WtW grant was awarded, on
    Administrative
                                   June 30, 1998, PWDB served as the administrative entity and
    Entity Changed                 fiscal agent for the Region 14 Workforce Development Board
                                   in Florida. During the same period, Career Options of
Pinellas, Inc. (COPI), served as the administrative entity and fiscal agent for the WAGES
Coalition, formed as part of Florida’s WtW program.


1
 OIG audit report number 04-00-004-03-340, “Florida’s Cash Management Practices Have Increased the Federal
Government’s Interest Costs,” dated September 20, 2000.
                                                                                                             3

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



In 2000, the Florida Legislature enacted the Workforce Innovation Act of 2001 (Act). The Act
abolished the local WAGES coalitions, mandated the appointment of new workforce
development boards and folded the responsibilities of the WAGES coalitions into newly
appointed regional workforce boards. The new workforce boards were established to administer
programs under the Workforce Investment Act (WIA) of 1998.

During the transition to the new regional workforce board, PWDB and COPI continued their
respons ibilities as fiscal agents and administrative entities for the WtW, Welfare Transition and
WIA programs. While still acting as the grantee for the WtW grant, PWDB received verbal
approval from ETA to extend the grant by 6 months, through June 30, 2001.

Pursuant to WIA and the Act, Pinellas County, Florida, designated itself as the fiscal agent and
appointed a new Regional Workforce Board. The new Board selected Pinellas County as the
administrative agent for the Board. The State of Florida approved this transition on
January 19, 2001. The Regional Workforce Board and Pinellas County, as the administrative
agent, formed WorkNet Pinellas, a nonprofit corporation, to deliver the grant.

ETA issued Training and Employment Guidance Letter No. 4-00, on September 7, 2000. The
Letter provided WtW grantees guidance about the WtW and WIA programs’ interface.
According to the letter, “With the implementation of WIA, the Chief Elected Official (CEO)
determines who can now oversee the WtW formula or competitive grant programs previously
overseen by the PIC.” The Letter further provided “In most cases, the CEO will choose the
successor entity local board to oversee the WtW Program(s). This is accomplished through a
novation agreement by which a PIC transfers WtW funds, assets and responsibilities to the new
local board.” We were not provided with a novation agreement. However, a transition plan
describing the assumption of financial and administrative responsibilities by WorkNet Pinellas
was available.



 Purpose of WtW              On August 22, 1996, the President signed the Personal
                             Responsibility and Work Opportunity Reconciliation Act
 Competitive Grants
                             (PRWORA), under which the Temporary Assistance for Needy
Families (TANF) program was established. The TANF program, administered by HHS, changed
the Nation’s welfare system from one of entitlement-based assistance payments to programs tha t
intend to help welfare recipients find work. Generally, adult welfare recipients are expected to
become self-sufficient within a 60-month period of time, through TANF programs’ “work- first”
focus.

On August 5, 1997, the President signed the Balanced Budget Act of 1997. This legislation
amended certain TANF provisions of the Social Security Act and authorized the Secretary of
Labor to provide WtW grants to state and local communities for transition employment
assistance to move hard-to-employ TANF welfare recipients into unsubsidized jobs and
economic self-sufficiency.



                                                                                                     4

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



Approximately 75 percent of WtW funds in each fiscal year are distributed as “formula” grants
to states. The states, in turn, pass a majority of the funds they receive to local service delivery
areas (SDAs). ETA awards the remaining 25 percent of WtW funds to organizations, through a
competitive grant process. Competitive grants are intended to provide “innovative and creative
approaches” that successfully move hard-to-employ recipients into unsubsidized employment
and self-sufficiency.

                          The service strategy described in PWDB’s grant proposal included
 PWDB’s Grant             providing case managers with “non-traditional client- focused” tools.
 Proposal                 Elements of the proposed strategy included: "Business Enclaves,"
                          consisting of small number of clients performing similar tasks within an
                          industry under the direct supervision of a trained “Enclave Manager.”
Also, “Transition Coaches,” were to act as participants’ advocates to employers and provide
on-the-spot guidance in addressing participants’ basic deficiencies. Finally, “Job Buddies,” were
to assist clients with specific occupational performance skills and extend the role of Transition
Coaches in dealing with personal skills and problems. Formal agreements were to be negotiated
with each employer outlining the responsibilities of Job Buddies and payment conditions.


 Procurement                Section 95.43 of 29 CFR Part 95 (Uniform Administrative Requirements
                            for Non-Profit Organizations) require that “All procurement transactions
 Requirements
                            shall be conducted in a manner to provide, to the maximum extent
                            practical, open and free competition.”

Section VIII of PWDB’s Administrative Plan establishes policies and procedures to be followed
in the procurement of goods and services. The requirements provided that PWDB’s procurement
transactions are to be conducted in a manner that provides, to the maximum extent possible, open
and free competition. According to the Plan, policies and procedures governing procurement
should ensure that all goods and services are obtained in an effective and efficient manner and
the procedures comply with all applicable Federal, State and local laws, rules and regulations.

Provisions of Section 95.45 of 29 CFR Part 95 (Uniform Administrative Requirements for Non-
Profit Organizations), require that some form of cost or price analysis is completed and
documented for every procurement action. Cost analysis is the review and evaluation of each
element of cost to determine its reasonableness, allocability and allowability. Section 95.44
provides that the type of procuring instruments used (e.g., fixed-price, cost reimbursable or
incentive contracts) will be determined by the recipient, but will be appropriate for the particular
procurement and for promoting the best interest of the program or project involved.

The Plan requires that either a price analysis or a combination of cost and price analysis, be
conducted for all procurements exceeding $2,500. A cost/price analysis is also required for all
contract modifications resulting in a monetary impact. A price analysis is conducted for
procurement of a vendor and a cost and price analysis is completed for procurement of a service
provider. A cost analysis is completed to determine the allowability, necessity, reasonableness
and allocability of each budgeted line item cost.

                                                                                                      5

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant




The Plan provides that the award of any contract or agreement will be contingent upon
satisfactory completion of negotiations. The administrative entity is responsible for establishing
and maintaining adequate procurement and fiscal records. Rationale for the method of
procurement, agreement type, contractor selection or rejection and the basis for the contract
price, are to be clearly defined for the record. The Plan cautions that extreme care is to be taken
in justifying sole-source procurements.


                     Cost principles for Non-Profit Organizations are contained in OMB Circular
 Cost                A-122. PWDB’s WtW grant agreement and WtW regulations provide that the
 Criteria            Circular is to be followed in determining the allowability of costs.

                   OMB Circular A-122 provides that to be allowable, costs must be reasonable,
allocable and adequately documented. To be reasonable, the cost must be ordinary and
necessary for the performance of the grant award, and not exceed that which would be incurred
by a prudent person. Costs are allocable to an objective to the extent benefits are received.



 Administrative        Administrative Requirements for Non-Profit Organizations are codified in
 Requirements          DOL regulations at 29 CFR Part 95. These regulations provide that
                       grantees’ financial management systems must have records that
                       adequately identify the source and application of funds for Federally
sponsored activities and accounting records that are supported by source documentation.
Grantees must maintain a system for contract administration to ensure contractor conformance
with the terms, conditions and specifications of the contract.




                                                                                                      6

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                OBJECTIVE, SCOPE AND METHODOLOGY

                     Our objective was to determine whether PWDB spent WtW grant funds in
   Objective         accordance with WtW legislation, WtW grant regulations, and the PWDB’s
                     grant project synopsis, which was the basis for the grant award.


                  Our audit focused on PWDB’s compliance with procurement and monitoring
   Scope          rules and regulations governing contracts funded with WtW grant monies. On
                  June 30, 1998 DOL awarded PWDB a $1.5 million Competitive WtW grant.
The primary objective of the grant was to expand the base of knowledge, through the
development of innovative and creative approaches, and to successfully move
hard-to-employ recipients into unsubsidized employment and self-sufficiency.

We selected for audit 8 of the 12 WtW grant contracts awarded to provide participant
employment and supportive services. Our sample included all five contracts that provided
participants job placement and retention services, and three contracts that provided participant
supportive services. We audited the contracts to determine compliance with WtW legislation,
WtW grant regulations, and PWDB’s grant project synopsis.

We identified material weaknesses in PWDB’s contract procurement and monitoring activities
that are discussed in the “Results of Audit” section of this report. Our audit was conducted in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States, and included such tests as we considered necessary to satisfy the objective of our
audit. We began our fieldwork in July 2001 and it continued intermittently through
January 2002.


                     We completed audit work to determine if funds had been misspent. We
 Methodology
                     reviewed PWDB policies and procedures related to WtW grant activities.
                     Service providers’ contract scope of work was compared to the grant project
synopsis. Using contract files, computerized participant tracking databases and participant data
files, we reviewed eight contracts to evaluate adherence to WtW grant legislation and
regulations. We obtained Quarterly Financial Status Reports (QFSRs) and evaluated the
accuracy of reported performance data.

We used PWDB’s computerized participant tracking files, contract payment records, participant
files, and State Unemployment Insurance (UI) wage data to verify those participants who were
placed and retained in unsubsidized employment. Contract files were reviewed to determine if
Federal and State procurement regulations were followed. We analyzed contract payment
documentation and reviewed the services provided, to evaluate the costs and effectiveness of
serving WtW program participants. Our examination was limited to the administrative and
accounting controls applicable to PWDB’s WtW competitive grant.


                                                                                                    7

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



                                     RESULTS OF AUDIT

ETA requested we audit the WtW program’s activities, because of indications program abuses
had occurred. ETA was concerned that a PWDB contractor, who had been paid to place WtW
program participants in unsubsidized employment, had instead, placed the participants in
subsidized jobs funded by another Federal program.

We found that ETA’s concerns were warranted. PWDB’s contractor received a total of $168,635
for serving 74 participants who were enrolled into a training and job placement program funded
by HHS. The HHS- funded service deliverer also received payments for placement and retention
of the same participants. Further, we did not find evidence that the contractor used the intensive
methodology discussed in its contract and in PWDB’s grant proposal. Finally, the contract was
not competitively procured, as was required. Consequently, the contractor did not satisfy the
terms of its contract, procurement requirements were violated and the grant was charged for
duplicative services.

We expanded our review to seven additional PWDB contracts and identified many related
financial and compliance concerns involving other PWDB service providers. We questioned all
grant expenditures totaling $858,674 for the eight contracts we reviewed, because there was no
evidence any of the contracts were competitively procured, as was required. We also questioned
$542,230 of the contracts’ expenditures for other reasons. We found:

             •   contract terms were violated and contract charges were not properly documented;

             •   poor procurement practices inflated participant service costs;

             •   grant performance reporting and contract monitoring were inadequate; and

             •   PWDB did not use the program delivery methodology proposed in its grant
                 application.

Summaries of the problems we identified are discussed in the following sections of this report.
Costs we have questioned are summarized in Exhibit 1. A synopsis of the individual contracts
we examined, our concerns with each contract, and a detailed description of the related
questioned costs are presented in Attachments A through G of this report.


CONTRACT TERMS WERE VIOLATED AND CONTRACT CHARGES WERE NOT
PROPERLY DOCUMENTED

We identified numerous instances where service providers did not comply with the terms of their
contracts or available documentation was inadequate to substantiate the charges.



                                                                                                  8

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



 WtW Participants                      We found two service providers received payment for helping
 Were Placed in Another                the same participants find jobs. We have questioned $208,386
 Training Program Funded               paid Abilities of Florida, Inc. (Abilities), a WtW service
 by HHS                                provider who contracted with PWDB to find participants
                                       unsubsidized jobs.

PWDB contracted with Abilities to serve WtW program participants. Abilities was paid for
assisting participants to find unsubsidized employment and their 180-day retention in jobs.
Grant records indicate Abilities placed 87 participants with the Pinellas County Parks
Department. Abilities received fixed-price payments totaling $168,635 for placing and retaining
the participants. However, we found 74 of the 87 participants were actually enrolled in a
HHS- funded training program administered by the Pinellas WAGES Coalition.

Under the HHS-funded program, wages participants received during the first 60 days of their
training was paid them by the Pinellas WAGES Coalition. The 74 participants were placed with
the Pinellas County Parks Department. Pinellas County, under a contract with the Pinellas
WAGES Coalition, also received compensation for placing the participants with the Pinellas
Parks Department. Therefore, the contractors were funded through Federal agencies for the
same services.

In addition, our analysis of the 74 participant case files and State Unemployment Insurance
wages records indicated that 20 of the participants who Abilities claimed to have placed with the
Parks Department remained in the training program less than 60 days. Therefore, they never
entered unsubsidized employment.

We have questioned $168,635 paid to Abilities that are associated with the 74 participants. The
costs we have questioned were not in accordance with Abilities’ contract or OMB Circular A-
122, General Principles, Section A.2. (a), which provides that for cost to be allowable they must
be “. . . reasonable.” Grant charges for activities that did satisfy the contract’s provisions and
duplicated services provided through other Federal grants are not reasonable.

In addition to $168,635 in payments related to the WAGES program, we also questioned
$39,751 in other payments Abilities received from WtW grant funds. Additional questioned
costs include payments for placing and retaining participants on whom documentation was
missing or claimed activities were not supported by UI wage history records. We have also
questioned costs PWDB allowed Abilities to bill the program by modifying Abilities’ contract to
allow recovery of actual costs. Abilities was a performance-based, fixed fee contractor.
Consequently, the revenue it received should have been based solely upon whether it satisfied
performance benchmarks in its contract.

Payments made to a contractor did not meet the standard of being “reasonable” as required by
OMB Circular A-122. Modifying a fixed-price contract to allow a contractor to cla im cost
reimbursements is not in accordance with OMB Circular A-122, General Principles, Section A.3.
(a), which provides that for cost to be reasonable it must be, “. . . ordinary and necessary for the
operation of the organization or the performance of the award.” We do not believe that it was
reasonable or necessary to modify the fixed-price contract and reimburse the contractor’s cost.
                                                                                                     9

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant




Also, OMB Circular A-122, General Principles, Section A.2 (g) provides that for cost to be
allowable they must be, “. . . adequately documented.” Unsupported payments and missing
participant files do not satisfy this standard.

Abilities’ contract indicates it would employ an intensive, client assistance “Enclaves in
Business” model in helping WtW program participants. However, we did not find any evidence
that the contractor utilized the “Enclaves in Business” model as provided for in the contract
scope of work. While the contract provided that enclave and “Job Buddy” agreements would be
negotiated with the employer, written agreements between the contractor and employer (Pinellas
County Parks Department) were not available for our review.

Finally, as further discussed in the section of this report titled “Poor Procurement Practices
Inflated Participant Service Costs,” that follows, we did not find evidence the Abilities contract
was competitively procured. Both Federal requirements and PWDB’s administrative procedures
required it be bid. Consequently, we have also questioned all grant expenditures totaling
$332,686, because PWDB did not comply with procurement requirements.


                                PWDB contracted with Lockheed Martin IMS to provide transitional
   Participants Were            assistance to participants unable to participate in WAGES programs
   Not Eligible for             because of medical deferments. (See Attachment B.) Trans itional
   Services                     assistance services were paid for with WtW grant funds.

We identified numerous instances where services were provided to individuals who did not meet
the contract’s definition of those eligible for the assistance. Lockheed’s cost-reimbursable
medical deferment contract defined participants as those individuals documented as eligible to
receive WtW transitional services, who had entered unsubsidized employment and who had
received a “good cause” deferral, based on medical evidence of incapacity.

Through review of computerized participant database and case management files, we identified a
total of 164 participant enrollments under the contract. However, computerized participant
records showed an employer for only 21 participants.

Case management files for 3 of the 21 participants were not available. We did not identify any
services the remaining 18 participants received while enrolled under the contract. Case
management notes were included in only four participants’ files and they offered little
information on services provided to participants enrolled in the medical deferment program.

We questioned $80,654 total expenditures under the contract because database records showed
that only 21 of 164 enrolled participants were employed, as the contract required. Records were
inadequate for us to evaluate services received by the 21 eligible participants. Payments to
individuals who do not meet the contract’s definition of eligible participants are inconsistent with
OMB Circular A-122’s standards that expenditures be “reasonable” and “necessary.” Similarly,
missing and inadequate case management notes do not meet requirements that expenditures be
adequately supported.
                                                                                                 10

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant




 Contract Payments              We identified duplicate benchmark payments, lack of supporting
 Were Duplicated or             documentation, and missing participant files that involved contracts
 Not Supported                  with Gulf Coast Jewish Family Services, Inc., and Lockheed Martin
                                IMS.

We questioned total expenditures of $224,317 for the contracts, because we did not find evidence
the contracts were competitively procured. In addition, we questioned a total of $57,359 of the
contract expenditures for other reasons.


Gulf Coast Jewish Family Services, Inc. PWDB had two contracts with Gulf Coast Jewish
Family Services, Inc. Gulf Coast was paid for completing participant eligibility determinations,
placing participants in jobs and participants’ retention in their jobs for 180 days. The contractor
was to serve noncustodial parents. (See Attachment C.)

We identified five duplicate placement payments occurred. Also, documentation was not
available to support job retention payments Gulf Coast received for nine participants. Duplicate
placement payments violate requirements that grant expenditures be necessary and reasonable, as
required by OMB Circular A-122. The unsupported job retention payments do not meet Circular
A-122 requirements that they be “adequately documented.” We questioned $20,090 related to
unsupported and inadequately documented payments. (See Attachment C.)

We also noted the earlier contract’s scope of work provided that transition coaches would work
with employers to identify staff members willing to serve as “Job Buddies.” Job Buddies were
to assist participants with occupational performance skills, help with employability skills
development, and assist participants adjusting to employers’ business cultures. Transition
coaches were to negotiate formal agreements with employers willing to provide Job Buddy
services. However, there were no Job Buddy agreements available for our review. Based on our
participant case file reviews, the Job Buddy concept was not employed. Rather, routine case
management techniques were used.


Lockheed IMS PWDB contracted with Lockheed IMS (see Attachment G) for Transition
Coaches and Job Buddies to help WtW participants find and keep jobs. The contractor was to
receive payments for placing participants in jobs and for participants remaining employed 180
days (retention).

We identified 10 duplicate enrollment payments and a duplicate retention payment. Also,
documentation maintained in participant case files and our review of available UI wage data did
not support two additional job placement payments and one additional retention payment made
to Lockheed. In addition, 43 participant files were not available for our review.

We questioned payments of $37,269. (See Attachment G.) The duplicate placement payments
violate “reasonable” and “necessary” standards of OMB Circular A-122, previously discussed.

                                                                                                  11

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



We did not find evidence PWDB competitively procured the contract and have questioned all
expenditures of $74,151 associated with the contract. In addition, we have questioned $37,269
of the expenditures, because of duplicate payments, inadequate support and missing
documentation.


POOR PROCUREMENT PRACTICES INFLATED PARTICIPANT SERVICE COSTS


PWDB exercised poor stewardship over grant funds by not adhering to Federal, State and grant
procurement requirements. As repeatedly mentioned, services were not competitively procured
and contract files did not contain evidence of cost negotiations or cost/price analysis. We also
found instances where fixed-price contracting was improperly utilized and contractors were paid
profits in violation of grant guidelines. Poor procurement practices also inflated the cost of
participant services. We have questioned total contract expenditures of $858,674 for the eight
contracts we reviewed that were not competitively procured. (See Exhibit 1, Table A.)


 Participant Services            Federal and State procurement regulations, as well as WtW
 Were Not Competitively          grant guidelines, mandate competitive procurement in selecting
 Procured                        contractors to provide participant services. None of the contract
                                 files contained evidence of competitive procurement. In
response to our concerns, WorkNet Pinellas (successor to PWDB) management stated that
inclusion of service providers in the grant application constituted ETA’s approval of their
selection.

We disagree. Inclusion of service providers in the grant application does not relieve the grantee
from following Federal requirements, its own competitive procurement policy or ETA's
instructions. Section 95.43 of 29 CFR Part 95 (Uniform Administrative Requirements for Non-
Profit Organizations) require that “All procurement transactions shall be conducted in a manner
to provide, to the maximum extent practical, open and free competition.”

The WtW grant’s project synopsis states that the uses made of WtW grant funds will be
coordinated with activities funded by TANF, JTPA, WtW formula grant funds, and other
community resources. It further provides that services will be procured through a competitive
process.

ETA issued guidance on this subject and published it on the WtW website as follows:

      If in preparing its grant proposal, an applicant for a competitive grant gets
      commitments from various partners to provide certain activities/services and names
      those partners in its grant application, is it then necessary for the applicant to go
      through a procurement process to select the providers subsequent to grant award?




                                                                                                12

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



      ETA Response: ETA’s selection of an applicant does not constitute a blanket
      endorsement of the listed partners/providers or the process by which they were
      selected. ETA in its evaluation and selection process assumes that the
      partners/providers listed in the applicant’s submission were or will be selected in
      accordance with the applicable procurement rules and other requirements. Listing
      the names of the partners/providers in its grant application does not relieve an
      applicant from compliance with these requirements.

PWDB’s internal policies and procedures contained similar requirements. Section VIII of
PWDB’s Administrative Plan established policies and procedures for procurement of goods and
services. The requirements indicated that all procurement transactions would, to the maximum
extent possible, provide for open and free competition. The Plan indicated goods and services
were to be procured in a manner that complied with applicable Federal and State laws and
program guidance.

The Administrative Plan required that purchases exceeding $100,000 be competitively procured,
through sealed bids or written proposals. All proposals were to be reviewed for duplication with
other publicly funded services. Programs similar to those already operating were to be approved
only if additional services were provided. Noncompetitive proposals (sole source) contracts
were to be awarded only when it was appropriate, necessary, and in PWDB’s best interests.


 The Reasonableness of                 Contract files did not contain evidence that the PWDB
 Contractors’ Cost and                 conducted cost negotiations or cost/price analysis to evaluate
 Pricing Data Were Not                 the reasonableness of contractors’ costs. Cost analysis is a
 Adequately Determined                 component-by-component evaluation of cost estimates.

Due to the absence of competitive procurement, analysis of contractors’ proposed cost of
providing services was critical. Section 95.45 of 29 CFR Part 95 (Uniform Administrative
Requirements for Non-Profit Organizations) requires that some form of cost or price analysis
shall be completed and documented for every procurement action.

PWDB used fixed- unit-price performance-based (fixed-price) contracting for participant
services. PWDB contracted primarily with 3 service providers for these services. Although the
contractors used similar methods to provide the services, we found significant differences in the
amount of the fixed-price payments. The grant management file contained documentation
related to calculations of fixed-price benchmark payments (see Exhibit 2). However, it is not
evident these guidelines were followed.

Benchmark payments varied among contractors and among related contract modifications.
Participant placement benchmarks ranged from $517.50 to $1,065.20, and 180-day retention
benchmarks ranged from $858.20 to $2,504.62. While some contract files contained line item
budgets, none of the files had documentation supporting calculation of the benchmark payment
amounts.



                                                                                                        13

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



To illustrate our concerns, PWDB entered into two contracts with Gulf Coast Jewish Family
Services, Inc. (see Attachment C), to provide non-custodial parents with job placement and
retention services. Although the first contract’s scope of work and the numbers of anticipated
placements and retentions remained the same, contract modifications increased placement
payments from $517.50 to $860.49 (66 percent increase) and retention payments from $858.20 to
$1,326.10 (55 percent increase). The cost of building occupancy, utilities, and equipment were
included in the contractor’s budget.

The second contract stipulated that office space, equipment, and comp uter/telephone access were
to be provided to the contractor at no cost. Although administrative costs should have been
lower, benchmark payments negotiated in the second contract were higher than those in the first.
Placement payments (referred to by PWDB as enrollment payments) increased from $517.50 to
$1,065.20, and retention benchmark payments climbed from $858.20 to $1,892. Contract files
did not contain documentation justifying the increased payments.

We had similar concerns with the Abilities’ contract (see Attachment A). While services to be
provided participants remained the same, the contract’s fifth modification increased enrollment
payments from $1,275.78 to $1,502.77 (18 percent increase), and retention payments from
$2,120.78 to $2,504.62 (18 percent increase). Again, the contract files did not justify the
increases.


 Fixed-Price                We also identified an instance where the fixed-price contracting
 Methodology Was            methodology was circumvented. PWDB contracted with Abilities
 Circumvented               (see Attachment A) to provide participant job placement and
                            retention services. While the contract was awarded as fixed-price,
the contract was modified to allow the contractor to claim and obtain reimbursement for $17,000
in costs.

The purpose of a performance-based fixed-price contract is to reward effective contractors with
revenue increases as the number of participants who are served increases. Due to lack of
participant enrollments, the contractor would not have recovered these expenditures had it not
been for the contract modification.

Modification of the contract to allow a contractor to recover cost is inconsistent with the
“reasonable” and “necessary” standards of OMB Circular A-122. Therefore, we have questioned
the costs.


 Fixed-Price                Federal procurement regulations require that, while the method of
 Contracting Was            procurement is determined by the grant recipient, it will be
 Improperly Utilized        appropriate for the particular procurement and promote the best
                            interests of the program or project involved. We found two
instances where fixed-price contracts were used, but were not appropriate and were not in the
best interest of the WtW program.

                                                                                                  14

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



Family Resources, Inc. PWDB contracted with Family Resources, Inc., to provide 200 voice
mailboxes for use by Competitive WtW grant participants during a 15- month period. The
contractor was compensated on a fixed-price basis for a total of $35,000 (5 quarterly payment of
$7,000 based on $35 each quarter for each of 200 mailboxes). (See Attachment D.) Grant
expenditure records showed total contract payments of $35,000. According to a mailbox
assignment listing obtained from the contractor, only 89 of the 200 (45 percent) mailboxes were
assigned.

Of greater concern is our verification that only 7 percent (14 of the 200) of the mailboxes were
assigned to WtW grant participants. We were unable to verify WtW program participation for
three individuals, because participant files were missing. In two other instances, the participants
were referred to the WtW program, but they never enrolled. We were informed that the
remaining 70 names included participants served by the WAGES program and participants
certified eligible for WtW, but never enrolled.

Costs incurred by the WtW program for services that were not of benefit WtW participants do
not meet the “reasonable,” “necessary,” or “allocable” standards of OMB Circular A-122. We
questioned $32,550 costs not associated with WtW participants. Computation of the questioned
cost is presented in Attachment D.

Bay Area Commuter Services Inc. PWDB contracted with Bay Area Commuter Services, Inc.,
to provide 9 vans for use by WtW grant participants during a 13- month period. Through contract
modifications, the number of vans increased to 19. (See Attachment E.) The contractor was
compensated monthly, on a fixed-price basis, for each van. Grant expenditure records showed
total contract payments were $160,602.

The contract did not require, and neither PWDB nor the contractor maintained, data on van
utilization. Consequently, we were unable to determine the extent to which the vans were
needed or evaluate the benefits, if any, received by WtW grant participants. Therefore, we
questioned the total contract payments of $160,602. The lack of utilization records does not
satisfy the requirement that expenditures be “adequately documented,” as required by OMB
Circular A-122.

We believe that these two contracts should have been negotiated on a cost-reimbursable basis.
This method of contracting would have helped ensure that costs charged to the WtW grant were
reasonable and necessary.


   Contractors Were               We identified two instances where PWDB allowed a for-profit
   Paid Profits in                contractor to include profit in budgeted costs estimates and
   Violation of Grant             reimbursed the contractor for those profits. The profits were paid
   Guidelines                     in violation of WtW guidelines.

DOL announced the availability of WtW grant funds in the December 30, 1997 Federal Register.
The notice contained the following provision: “Profits are not an allowable use of grant funds.”
Potential grant applicants raised questions concerning the allowability of profits and ETA
                                                                                                   15

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



responded to these and other questions on its Internet site. In response to questions as to why
profit was not allowed for WtW grants, ETA stated:

        WtW competitive grants present an opportunity for private “for-profit” entities to
        collaborate with non-profit organizations as well as public agencies to provide
        effective services for hard-to-employ welfare recipients. To a certain extent,
        competitive grant funds will subsidize the research and development activities of
        “for-profit” entities, enabling them to test experimental employment strategies at
        no cost to themselves. “For-profit” entities are welcome to use the knowledge
        and experience they gain in profit-making enterprises funded through other
        sources, but the Department feels it is reasonable to disallow the earning of profit
        on competitive grant funds.

Also, Uniform Administrative Requirements for Non-Profits (29 CFR Part 95) prohibit, in
certain instances, contractor profits. Section 95.44(c) states that the “cost-plus-a-percentage-of-
cost” method of contracting shall not be used.

PWDB contracted with Lockheed Martin IMS to provide job coaches to recruit churches to work
in partnership with the WtW program (see Attachment F). The contract allowed for cost
reimbursement, plus a profit margin of 10 percent of actual costs incurred. Contract payments
totaled $25,415 including $2,678 in profits. We question the $2,678 of profits because the
payment of profits is contrary to ETA's guidelines and the requirements of 29 CFR Part 95,
Section 95.44 (c).

PWDB also contracted with Lockheed Martin IMS to provide transitional assistance to
participants who were unable to participate in the WAGES program because of medical
deferments (see Attachment B). The contract allowed for cost reimbursement, plus a profit
margin of 10 percent of the actual costs incurred. Contract payments totaled $80,654 and
included $8,057 in profits. We question the $8,057 because paying profits based on a percentage
of actual costs is contrary to the rules at 29 CFR Part 95, Section 95.44 (c).



GRANT PERFORMANCE REPORTING AND CONTRACT MONITORING WERE
INADEQUATE

 Grant Performance                Required Federal reports were sporadically submitted and those
 Reporting Was                    that were received were inaccurate. WtW grant modification
 Inadequate                       number 01, effective July 1, 1998, required the use of Form ETA-
                                  9068 (WtW Competitive Grant Cumulative Quarterly Financial
                                  Status Report).

The first QFSR, covering activities from the inception of the grant through September 30, 1998,
was due no later than November 14, 1998. Although the grant performance period began July 1,
1998, we found no evidence of any QFSR being submitted during 1998. The earliest QFSR


                                                                                                  16

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



available for our review was for the period that ended March 31, 1999. The final QFSR was
submitted August 15, 2001, for the period that ended June 30, 2001.

QFSRs for June 30, 2000 and September 30, 2000, reported the same numbers of participants in
activities. The final QFSR, for the period that ended June 30, 2001, reported no participants
were terminated, and no participants were retained in unsubsidized employment for 180 days.
However, the March 31, 2001 QFSR reported 248 participants were terminated and 188
participants were retained.

When we questioned the grantee concerning the inconsistencies, grantee staff told us that the
QFSRs were incomplete and unreliable. Since we could not rely on the QFSR data, we utilized
available data (computerized participant database files, case management files, contract payment
records, and State Unemployment Insurance wage history records) to determine the numbers of
participants served by the WtW grant.

Our analysis identified 299 participant enrollments (placements) and 105 participant 180-day
retentions. However, we were unable to verify services provided to some participants because of
missing files.


 Contractor Monitoring            We also are concerned with PWDB's lack of contractor oversight.
 Was Inadequate                   Program management was unable to provide us any evidence that
                                  the contractor's activities had been monitored.

Section 95.51 of 29 CFR Part 95 (Uniform Administrative Requirements for Non-Profits)
provides that recipients are responsible for managing and monitoring each project, program, sub-
award, function or activity supported by the award. Also, section VI (Monitoring, Oversight and
Evaluation Procedures) of PWDB’s Administrative Plan for Program Years 1998 and 1999
provides that the Board Monitor is responsible for monitoring, oversight and evaluation of
PWDB and all related programs and contracts.

According to the Administrative Plan, onsite monitoring of service provider contracts and
internal monitoring was to be conducted at least once during each fiscal year. New service
provider contractors with whom PWBD had no previous experience were to be monitored within
60 days of the start date of services. Monitoring of all contractors was to be initiated within 4
months of the start date of each contract. Written monitoring reports were required.


PWDB DID NOT USE THE PROGRAM DELIVERY METHODOLOGY PROPOSED IN
ITS GRANT APPLICATION

PWDB’s Competitive WtW grant program did not fulfill its promises of using innovative and
creative approaches to successfully move hard-to-employ recipients into unsubsidized
employment. PWDB’s grant proposal called for novel approaches such as “Business Enclaves”
and “Job Buddies” to assist participants in obtaining employment and economic self-sufficiency.
Although PWDB’s contracts with service providers also called for these intensive approaches,
                                                                                                17

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



contractors did not use them. Instead, routine case management practices were used. We found
no evidence that enclave or Job Buddy agreements were negotiated with employers, as required
in the service provider contracts.


RECOMMENDATIONS

Although we identified weaknesses in PWDB’s administrative and program controls, we have
not made recommendations to correct administrative weaknesses because the grant has expired
and PWBD is no longer an administrative entity for Federal grant funds.

However we have questioned $858,674 in expenditures related to the contracts we reviewed. We
recommend that the Assistant Secretary for Employment and Training recover these costs, unless
the grantee can provide documentation that establishes the costs are allowable. A summary of
questioned cost related to each contract is provided in Exhibit 1 of this report.


PINELLAS COUNTY’S COMMENTS TO THE DRAFT AUDIT REPORT

Pinellas County indicated that it was unable to respond to the draft report because during most of
the period covered by our audit, PWDB, not Pinellas County, was the grant recipient for WtW
funds. Pinellas County stated that they do not possess the files necessary to respond to the draft
report. Furthermore, the Pinellas County Board of County Commissioners has not agreed to
assume any liability for the grant.

Exhibit 3 contains the complete text of Pinellas County’s response to the draft audit report.


OIG’S CONCLUSIONS

We disagree with Pinellas County’s contention they did not assume liability for the grant and did
not have the files necessary to respond to the draft report. Pinellas County, doing business as
“WorkNet Pinellas,” assumed responsibility for operation of the WtW grant on January 19, 2001,
and administered the grant until June 30, 2001, when it terminated.

ETA provided WtW grantees guidance concerning transitioning to a new workforce board, with
the implementation of WIA. As explained in the “Background” section of this report, the
guidance indicates that the Chief Elected Official of the political entity (Pinellas County) is
responsible for choosing the successor board to oversee the WtW program. Transfer of WtW
funds, assets and responsibilities to a new board was to be accomplished through a novation
agreement.

Although a novation agreement was not available, WorkNet Pinellas did provide us a transition
plan indicating administrative and fiscal responsibilities were transferred from PWDB to
WorkNet Pinellas. It is our position that ETA’s guidance required that the transferee (WorkNet
Pinellas) assume all obligations and liabilities of, and all claims against, the transferor (PWDB).
                                                                                                  18

U.S. Department of Labor - Office of Inspector General
Audit of Pinellas WDB’s Competitive Welfare-to-Work Grant



The transition plan also indicated that all data (hard copy and electronic) related to WtW and
WIA participants would be transferred to Pinellas County.

All data that we examined during our audit, including computerized participant tracking,
participant, contracting, and contract payment files were provided by, and were in the possession
of, WorkNet Pinellas. In previous correspondence to us, WorkNet Pinellas acknowledged that in
January 2001 it took over as administrative entity for the WtW grant. Further, the previous
correspondence also indicated WorkNet Pinellas had provided us with all of the predecessor’s
records that were available. Finally, the previous correspondence stated that after a through
review, WorkNet Pinellas had no basis for disagreeing with the facts presented, except for
instances we have considered in preparing this report.

Pinellas County did not provide us any information that would cause us to change our findings.
We continue to recommend the Assistant Secretary for Employment and Training recover
$858,674 in misspent WtW funds.




                                                                                                 19

U.S. Department of Labor - Office of Inspector General
                                                                               ATTACHMENT A

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                        ABILITIES OF FLORIDA, INC.
            WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-01

Contract Synopsis

The contractor was to utilize the “Enclaves in Business” model to place and retain participants in
unsubsidized employment. The enclave model included using: “enclave managers” to provide
one-on-one training, as necessary to ensure that employer production and service performance
schedules were met; “transition coaches” responsible for close contact with participants to assist
them in overcoming barriers to successful job retention; and “Job Buddies” to assist participants
in becoming acclimated to the employer’s specific business culture and extend the role of the
transition coach in dealing with participant life and employability skills development.

The contract’s scope of work provided that enclave service agreements would be negotiated with
each employer, and each enclave agreement had to be approved by the PWDB prior to
implementation. Transition coaches were responsible for negotiating formal agreements with
employers to provide Job Buddy services. The contract also provided that the contractor would
work closely with the participants’ WAGES program case managers.

The contract’s initial period of performance, September 10, 1998 through
December 31, 1999, was extended through contract modifications to June 30, 2001. Contract
payment terms called for fixed-price payments, not to exceed a total of $326,600. Fixed-price
payments were based on a maximum of 128 placement payments of $1,275.78 each ($163,300),
and a maximum of 77 job retention payments of $2,120.78 each ($163,300).

Five modifications to the contract resulted in the addition of cost reimbursement expenses,
increased the number of enrollments (placements) to 175 and the number of job retentions to
105, extended the period of performance to June 30, 2001, and increased the maximum contract
payments to $581,611. The contract’s fifth modification provided for 50 additional enrollments
(placements), at a fixed-price of $1,502.77 each and 30 additional job retentions, at a fixed-price
of $2,504.62 each. The fifth modification stated that contract activities would be funded with
Competitive WtW funds through December 31, 2000, and with formula WtW formula funds
from January 1, 2001 through June 30, 2001.

The contract files contained line item budgets for cost associated with the fixed-price elements of
the contract. However, documentation to support the calculation of the placement and 180-day
retention payment amounts was not in the files. Therefore, we were unable to determine the
reasonableness of these payments.

OIG Concerns

ETA requested our audit because of concerns that WtW participants were placed in subsidized
employment, although the contractor was paid to place the participants in unsubsidized jobs. We
found that ETA’s concerns were warranted. Abilities, a service provider who contracted with
                                                                            ATTACHMENT A

                      SYNOPSIS OF CONTRACT, OIG CONCERNS
                         AND QUESTIONED COST SUMMARY

                       ABILITIES OF FLORIDA, INC.
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-01

PWDB to find participants unsubsidized jobs, received $168,635 for placing 74 participants in a
subsidized training program.

The Pinellas WAGES Coalition contracted with Pinellas County, Florida to provide a work-
focused delivery system that would effectively move people from welfare to work. The
contract’s period of performance was March 1, 1999 through February 28, 2001. HHS, through
the WAGES program, provided $1,162,500 for the contract. Pinellas County was to match the
grant and other support up to $2,000 per participant. The WAGES program or the State was to
pay for employment drug testing, uniforms, safety shoes, transportation and childcare.

The contract’s statement of work provided that Pinellas County would utilize a “Training to
Work” program and “Steps Toward Employment Partnership” (STEPS) program for job training
and placement services. Participants in the programs were to be assigned a job coach and
supervisor, and were to be trained in the County Parks Department, with the opportunity to
become regular employees of the Department or obtain employment in private enterprise.

Participant wages paid during the first 60 days of training were funded by WAGES grant monies,
provided through HHS. Payments for services delivered under the contract were fixed-price,
performance-based. The total amount that could be billed for each participant was $4,562.50. It
was based on three benchmark payment points: acceptance into the training program (40 percent
or $1,825.00), placement into suitable employment (50 percent or $2,281.25); and 180-day job
retention (10 percent or $456.25).

We did not find evidence that the contract was competitively procured, a cost/price analysis or
contract monitoring. We identified a total of 119 participant placements and 58 job retentions
through review of available computerized participant files, case management files, and contract
payment records.

Grant expenditure records showed total contract payments of $332,686, including $275,505 in
fixed-price payments (119 for placement and 58 for job retention) and $57,181 of cost
reimbursement payments. We were unable to verify 4 of the 58 job retention payments due to
information on two invoices. Of the 119 participants reported as placed, 85 were placed with the
Pinellas County Parks Department, 13 were placed with Morton Plant, 8 were placed with The
Home Shopping Network, and the remaining 13 were placed with various other employers. Case
file folders for 4 of the 119 participants were not available for our review.

We did not find any employer enclave service agreements or Job Buddy agreements. Based on
our participant case file reviews, the “Enclaves in Business” model was not used. Rather,
transition coaches used routine case management techniques.
                                                                              ATTACHMENT A

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                       ABILITIES OF FLORIDA, INC.
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-01

Of the 87 participants reported as placed in unsubsidized employment with the Pinellas County
Parks Department (the first employer for 85 participants and the subsequent employer for 2), 74
participants were enrolled into training activities funded by the Pinellas WAGES Coalition.
Participants' earnings during the first 60 days of training were paid with funds that were provided
by HHS.

Our analysis of the budgets raised concerns. While the services to be provided participants
remained the same, the contract’s fifth modification increased fixed-price payment amounts
(placement from $1,275.78 to $1,502.77 and retention from $2,120.78 to $2,504.62). While the
contract was awarded as fixed-price, performance-based, the contract’s first modification
allowed the contractor $17,000 in cost reimbursement expenses. These cost appeared to be
expenditures that were incurred by the contractor, but would not have been recovered because
insufficient numbers of participants were served.
                                                                             ATTACHMENT A

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                        ABILITIES OF FLORIDA, INC.
            WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-01



PROCUREMENT VIOLATIONS

Total contract cost questioned because
contract was not competitively procured                                            $332,686


COSTS QUESTIONED
FOR ADDITIONAL REASONS

Fixed-price payments for 74 participants
Abilities claimed were placed with, or retained
by, the Pinellas County Parks Department,
however, were enrolled in WAGES- funded activities                                $168,635*

Fixed-price retention payments
that were not supported (4 participants)                                8,484

Fixed-price payments associated
with missing participant files (4 participants)                         5,784

Fixed-price retention payments for
Individuals whose 180-day job retention
success was not supported (4 participants)                              8,483

Expenses reimbursed although contract payments
based on fixed-price performance benchmarks                            17,000

Subtotal                                                                              39,751

Total Questioned Costs                                                             $208,386




* This amount also includes $25,515 of fixed-price payments to Abilities for 20 participants that
were enrolled in the WAGES program and UI wage history files indicated did not remain
employed 60 days. Therefore, the participants were not placed in unsubsidized employment.
                                                                                ATTACHMENT B

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                         LOCKHEED MARTIN IMS
            WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-13

Contract Synopsis

The contractor was to provide transitional assistance to participants who were unable to
participate in the WAGES program because of medical deferments. Participants were defined as
individuals who had been documented as eligible to receive WtW transitional services, had
entered unsubsidized employment, and had received a “good cause” deferral, based on medical
evidence of incapacitation.

A nurse practitioner, skilled in evaluating medical deferral documentation, was to review
participants’ records, meet with participants, their physicians and attorneys, and develop a plan
of remediation, or a plan for expediting a Supplemental Security Income (SSI) application for the
participant. Participant plans were to be monitored by a WtW case manager who specialized in
medical deferments. The case manager was to work with the nurse to ensure the plan served the
participants’ best interest and was achieving expected results.

OIG Concerns

The contract allowed for cost reimbursement payments for actual expenses incurred plus a profit
margin of 10 percent of actual expenses incurred. Maximum total reimbursement during the
contract period of performance, June 14, 1999 through December 31, 1999, was $116,789
including a 10 percent fee (profit) of $10,617.

We did not identify any evidence that the contract was competitively procured, that a cost/price
analysis was conducted, or contract monitoring had occurred. Grant expenditure records showed
total contract payments of $80,654, including $8,057 in profit.

Through review of computerized participant and case management files, we identified a total of
164 participant enrollments. Of the 164 participant enrollments, the records indicated employers
for 21 participants. Case files for 3 of the 21 participants were not available. There were no case
management notes in 14 of the 18 participant case files reviewed. Case management notes in the
remaining 4 participant files included little information on services provided to the participants
while they were in the medical deferment program. Unemployment Insurance wage history
records did not support the participants’ employment for 7 of the 18 case files reviewed.

At the time this contract was entered into, State WAGES Coalition guidelines provided for the
operation of a medical deferral program. The program allowed local WAGES coalitions and
service providers to require individuals cooperate in an independent, third party medical and
vocational assessment. The assessment was necessary to evaluate individuals’ ability to
participate in work activities. An individual for whom there was medical verification of
limitations to participate in work activities was to be assigned to work activities consistent with
his or her limitations. Based on our review of the contract’s scope of work and position
                                                                              ATTACHMENT B

                      SYNOPSIS OF CONTRACT, OIG CONCERNS
                         AND QUESTIONED COST SUMMARY

                        LOCKHEED MARTIN IMS
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-13

descriptions of staff funded by the WtW grant contract, services provided by the contract
duplicated those provided under the WAGES Coalition guidelines.


QUESTIONED COSTS SUMMARY

Total contract cost questioned because contract was not
competitively procured                                              $80,654


OTHER QUESTIONED COST

Total contract cost questioned because participants were
not eligible and inadequately documented records                     $80,654


Profit included in reimbursement                                     $8,057

Net Other Questioned Cost                                           $80,654
                                                                               ATTACHMENT C

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                    GULF COAST JEWISH FAMILY SERVICES, INC.
                           WtW COMPETITIVE GRANT
                   CONTRACT NUMBERS 98-WtW-04 AND 00-WtW-01


CONTRACT 98-WtW-04

Contract Synopsis

The contractor was to use “Transition Coaches” to facilitate placement and 180-day unsubsidized
job retention for WtW grant participants by assisting them in overcoming barriers to successful
job retention. Job Buddy functions were to assist the participant in acclimatizing to employers’
culture and extend the role of the Transition Coach in dealing with participant life and
employability skills development. Transition Coaches were to work with employers to identify
staff members willing to serve as “Job Buddies”. Formal agreements, outlining Job Buddy
activities and responsibilities, as well as employer's reimbursement, were to be developed.
Transition Coaches were to discuss the formal agreements with employers willing to provide Job
Buddy services.

The initial contract period of performance was November 16, 1998, through
December 31, 1999. The contract period was extended, by modifications, until
May 31, 2000. Initial contract payment schedules provided for fixed-price payments not to
exceed a total of $75,102.60. Fixed-price payments were based upon expectations of 136
eligibility determinations; 68 placements; and 41 participants retained in unsubsidized
employment for 180 days. The contract was modified three times. Although the scope of work
and numbers of placements and retentions remained the same, placement payments increased
from $517.50 to $860.49 (66 percent), and retention payments from $858.20 to $1,326.10
(55 percent). The maximum contract amount was increased to $111,100.60.

OIG Concerns

We did not identify any instances of Job Buddy agreements with employers and our review of
participant case file indicated Job Buddy agreements were not used. Rather, Transition Coaches
used traditional case management techniques.

Based on our review of available computerized participant database files, case management files,
and contract payment records, we identified a total of 52 participant eligibility determinations, 46
participant placements, and 21 job retentions (180-day). Grant expenditure records indicated
contract payments, totaled $65,094.17. Payments included 52 eligibility payments of $34.73, 46
placement payments (24 at $687.90 and 22 at $860.49), and 21 retention payments of $1,326.10
each.
                                                                               ATTACHMENT C

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                    GULF COAST JEWISH FAMILY SERVICES, INC.
                           WtW COMPETITIVE GRANT
                   CONTRACT NUMBERS 98-WtW-04 AND 00-WtW-01


CONTRACT 00-WtW-01

Contract Synopsis

The contract was signed on September 11, 2000, and the period of performance was
September 1, 2000 through August 31, 2001. The scope of work remained the same as in
contract 98-WtW-04, except the Job Buddy concept was excluded. PWDB was to provide office
space, equipment, and computer/telephone access to the contractor at no cost. Contract payment
schedules provided for fixed-price payments totaling $113,520. Benchmark payments included
100 eligibility determinations at $35 each, 50 placement payments of $1,065.20, and 30 retention
payments of $1,892 each.

OIG Concerns

By reviewing available computerized participant database files, case management files and
contract payment records, we identified a total of 34 eligibility determinations, 45 placements,
and 19 job retentions. Grant expenditure records showed contract payments totaling $85,072.
The total consisted of 34 eligibility payments of $35 each, 45 placement payments of $1,065.20
each, and 19 retention payments of $1,892 each.

We did not identify any evidence that either of the two contracts were competitively procured,
contracting files did not contain evidence of cost negotiations or price analysis, and there was not
any evidence of post contract monitoring. Contracting files contained a line item budget which
supported contractor cost included for contract 98-WtW-04. However, we did not identify a line
item budget that supported contractor cost included for contract 00-WtW-01. Building
occupancy, utilities, and equipment were included in the calculation of fixed-price benchmark
payments for contract 98-WtW-04.

Although office space, equipment, and computer/telephone access were provided to the
contractor free of cost for contract 00-WtW-01, fixed-price payments increased. Placements
payments increased from $517.50 to $1,065.20 (106 percent) for each participant and retention
payments increased from $858.20 to $1,892 (121 percent). The contracting files did not contain
documentation supporting these increased benchmark payments.
                                                           ATTACHMENT C

                     SYNOPSIS OF CONTRACT, OIG CONCERNS
                        AND QUESTIONED COST SUMMARY

                   GULF COAST JEWISH FAMILY SERVICES, INC.
                          WtW COMPETITIVE GRANT
                  CONTRACT NUMBERS 98-WtW-04 AND 00-WtW-01


QUESTIONED COSTS SUMMARY

Total contract cost questioned because
contract was not competitively procured                $150,166


OTHER QUESTIONED COST

Lack of invoice payment support for one
job retention payment (98-WtW-04)                          $1,326

Five duplicate enrollment payments                          5,326

Lack of documentation to support retention                  3,978
payments for three participants (98-WtW-04)

Lack of documentation to support retention
payments for five participants (00-WtW-01)                  9,460

Total Other Questioned Cost                               $20,090
                                                                             ATTACHMENT D

                        SYNOPSIS OF CONTRACT, OIG CONCERNS
                           AND QUESTIONED COST SUMMARY

                               FAMILY RESOURCES INC.
                              WtW COMPETITIVE GRANT
                             CONTRACT NUMBER 98-WtW-06

Contract Synopsis

This contract was to provide 200 community voice mailboxes, for the WtW grant projects use
during the 15- month period October 1, 1998, through December 31, 1999. The contractor was to
be compensated on a fixed-price basis for a total of $35,000. There was to be 5 quarterly
payment points of $7,000 each. The $7,000 quarterly payment consisted of 200 voice mailboxes
at $35 each. Grant expenditure records indicate total contract payments were $35,000.

OIG Concerns

The contracted services were not competitively procured, and the contracting files did not
contain evidence of a cost or price analysis. Data related to assignment of the voice mailboxes to
WtW participants were not maintained by the grantee, and we found no evidence PWBD had
monitored the contractor.

We obtained a voice mailbox assignment listing from the contractor. The listing showed that 89
of the 200 mailboxes had been assigned. Of the 89 names that appeared on the listing, we were
able to match only 19 name s to participant files for the WtW grant. However, 3 participants’
files were missing and 2 participants were referred, but never enrolled into the program. In
summary, we were only able to verify a total of 14 voice mailboxes that were used by WtW
program participants.

QUESTIONED COSTS SUMMARY

Total contract cost questioned because
contract was not competitively procured                                           $35,000

OTHER QUESTIONED COST

Cost of voice mailboxes not utilized by
WtW grant participants:

     Total contract expenditures                                                  $35,000

     Less cost of mailboxes utilized by
     WtW grant participants-$175 per
     mailbox ($35 x 5 quarters) for
     14 participants                                                              (2,450)

Total Questioned Cost                                                            $32,550
                                                                             ATTACHMENT E

                     SYNOPOSIS OF CONTRACT, OIG CONCERNS
                        AND QUESTIONED COST SUMMARY

                  BAY AREA COMMUTER SERVICES, INC.
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-09

Contract Synopsis

This contract was to provide nine passenger vans for use by the WtW grant project, during the
13-month period December 1, 1998, through December 31, 1999. The contractor was to be
compensated on a fixed-price basis, for a total of $76,195. The contract was modified four
times.

The first modification, effective March 2, 1999, reduced the monthly cost of each van, thereby
reducing the contractor's total compensation to $65,730. The second modification, effective
June 21, 1999, increased the number of vans from 9 to 15, which increased the contractor’s
compensation to $88,880. The third modification, effective August 30, 1999, increased the
number of vans from 15 to 19, which increased the contractor’s compensation to $103,380.
Finally, the fourth modification, effective January 1, 2000, extended the contract through
June 30, 2000 and increased the contractor’s compensation to $162,330. Grant expenditure
records indicated the contractor received a total of $160,602.

OIG Concerns

The contracted services were not competitively procured. Contracting files did not contain
documentation of a cost or price analysis and we did not identify evidence of contract
monitoring. The contract did not require that records were to be kept on the number of
participants who used the vans. Neither the contractor nor PWDB maintained data related to the
use of the vans. Therefore, we were unable to evaluate the benefits received by WtW
participants.


QUESTIONED COST SUMMARY

Total contract cost questioned because
contract was not competitively procured                                   $160,602


OTHER QUESTIONED COST

Lack of supporting documentation to support
van utilization by WtW participants                                       $160,602
                                                                            ATTACHMENT F

                       SYNOPSIS OF CONTRACT, OIG CONCERNS
                          AND QUESTIONED COST SUMMARY

                         LOCKHEED MARTIN IMS
            WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-14

Contract Synopsis

The contract’s scope of work provided Job Coaches to recruit churches. The churches were to
work in partnership with the WtW program and support participants who were at risk of losing
their jobs. In addition to recruiting churches, the Job Coaches were to coordinate with case
managers and other service providers and address family issues.

OIG Concerns

The contract allowed for reimbursement of actual expenses incurred, plus a profit margin of 10
percent. The total amount to be paid under the contract was $76,865, which included a 10
percent profit of $6,988. Grant expenditure records indicated contract payments totaled
$25,415.10 and included $2,677.71 in profits.

The contract services were not competitively procured, and we found no evidence of a cost or
price analysis. We did not identify any evidence of contract monitoring by PWDB.


QUESTIONED COSTS SUMMARY

Total contract cost questioned because
contract was not competitively procured                                         $25,415


OTHER QUESTIONED COST

Profits paid to contractor in violation
of Federal grant guidelines                                                      $2,678
                                                                            ATTACHMENT G

                      SYNOPSIS OF CONTRACT, OIG CONCERNS
                         AND QUESTIONED COST SUMARY

                        LOCKHEED MARTIN IMS
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-11

Contract Synopsis

The contractor was to use Transition Coaches to help place and retain WtW participants, by
assisting them in overcoming barriers to successful job retention. Transition Coaches were to
work with employers, to identify staff members willing to serve as “Job Buddies.” Formal
agreements, outlining Job Buddy activities and responsibilities, as well as employer
reimbursement, were to be developed. Transition Coaches were to discuss the formal
agreements with employers willing to provide Job Buddy services. Job Buddy functions were to
assist the participant in becoming acclimatized to employers’ culture and extend the role of the
Transition Coach in dealing with participant life and employability skills development.

The contract's period of performance was December 1, 1998 through December 31, 1999. Initial
contract payment schedule provided for fixed-price payments not to exceed a total of
$105,570.16. Fixed-price payments were based on a maximum of 102 enrollment benchmark
payments totaling $52,785.08, and 62 job retention benchmark payments totaling $52,785.08.
The contract, modified on April 19, 1999, added cost reimbursable participant transportation
expenses totaling $30,720, which increased the maximum payments to $136,290.16.

OIG Concerns

There was no evidence that the contract was competitively procured, contracting files did not
contain evidence of a cost or price analysis, and we did not find evidence of monitoring by
PWDB. We did not identify any instances where employers had entered into Job Buddy
agreements. Based on participant case file reviews, Job Buddy agreements were not used.

Contract payments totaled $74,150.98. The payments included $55,537.96 in fixed-price
payments, consisting of 76 placement payments totaling $46,640.24 and 13 retention fixed-price
payments totaling $8,897.72. Cost reimbursement payments totaled $18,613.02. By reviewing
available computerized participant database files, case management files, and contract payment
records, we identified a total of 71 individual participant placements and 12 participants who
retained their jobs 180 days.

Our ana lysis of payment invoices for the 71 individual participants identified 10 duplicate
enrollment payments (5 payments of $684.44 each, and 5 payments of $236.34 each) totaling
$4,603.90. Case file folders were not available for 43 of the 71 participants. Documentation
maintained in participant case files and our review of available Unemployment Insurance Wage
History data did not support placement of 2 participants or the job retention of another
participant.
                                                             ATTACHMENT G

                        SYNOPSIS OF CONTRACT, OIG CONCERNS
                           AND QUESTIONED COST SUMARY

                        LOCKHEED MARTIN IMS
           WtW COMPETITIVE GRANT CONTRACT NUMBER 98-WtW-11

QUESTIONED COSTS SUMMARY

Total contract cost questioned because
contract was not competitively procured                      $74,151


OTHER QUESTIONED COST

Duplicate enrollment (placement) payments                     $ 4,604

Duplicate job retention payment                                  684

Lack of documentation to support two placements                  921

Lack of documentation to support one job retention               684

Placement and job retention payments associated
with the 43 missing participant case files                    30,376

Total Questioned Cost                                        $37,269
                                                             EXHIBIT 1


        PINELLAS WORKFORCE DEVELOPMENT BOARD
          COMPETITIVE WELFARE-TO-WORK GRANT
             SUMMARY OF QUESTIONED COSTS

                          TABLE A
TOTAL COST QUESTIONED BECAUSE OF NO COMPETITIVE PROCUREMENT
             AND INADEQUATE COST/PRICE ANALYSIS


 ATTACHMENT    CONTRACTOR               CONTRACT     QUESTIONED
      A     Abilities of Florida, Inc    98-WtW-01     $332,686
      B     Lockheed Martin IMS          98-WtW-13       80,654
      C     Gulf Coast Jewish            98-WtW-04       65,094
            Family Services, Inc.        00-WtW-01       85,072
      D     Family Resources, Inc.       98-WtW-06       35,000
      E     Bay Area Commuter                           160,602
                                        98-WtW-09
            Services, Inc.
      F     Lockheed Martin IMS         98-WtW-14        25,415
      G     Lockheed Martin IMS         98-WtW-11        74,151
 TOTAL                                                 $858,674


                           TABLE B
         COST QUESTIONED BECAUSE OF OTHER VIOLATIONS

 ATTACHMENT    CONTRACTOR               CONTRACT     QUESTIONED
      A     Abilities of Florida, Inc    98-WtW-01     $208,386
      B     Lockheed Martin IMS          98-WtW-13       80,654
      C     Gulf Coast Jewish            98-WtW-04
            Family Services, Inc.        00-WtW-01       20,090
      D     Family Resources, Inc.       98-WtW-06       32,550
      E     Bay Area Commuter
                                        98-WtW-09       160,602
            Services, Inc.
      F     Lockheed Martin IMS         98-WtW-14         2,678
      G     Lockheed Martin IMS         98-WtW-11        37,270
 TOTAL                                                 $542,230
                                                                                 EXHIBIT 2


            PINELLAS WORKFORCE DEVELOPMENT BOARD
              COMPETITIVE WELFARE-TO-WORK GRANT

          DOCUMENTATION RELATED TO COMPUTATION OF
                 FIXED-UNIT-PRICE CONTRACT
           PERFORMANCE-BASED BENCHMARK PAYMENTS




The following documents are excerpts from PWDB’s contracting files and is the only
information available showing how fixed-price benchmark payments were calculated.
EXHIBIT 2
EXHIBIT 2
EXHIBIT 2
EXHIBIT 2
                                                                                       EXHIBIT 3




                             THE COMPLETE TEXT OF
                          PINELLAS COUNTY’S RESPONSE
                           TO THE DRAFT AUDIT REPORT




Following this title page is the complete text of Pinellas County’s response to our draft audit
report, issued to them on February 12, 2002.
EXHIBIT 3
EXHIBIT 3
